No.19-675
INTHE

et al.,
Petitioners,

BANK OF AMERICA CORPORATION,

V.

CITY OF MIAMI, FLORIDA,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

CERTIFICATE OF SERVICE

I, Daniel P. Kearney, a member of the bar of this Court, hereby certify that, on
this 26th day of December, 2019, all parties required to be served have been served
copies of the Brief for Amici Curiae The Chamber of Commerce of the United States of
America, American Property Casualty Insurance Association, and Business Roundtable
in Support of Petitioners in this matter by overnight courier to the addresses below.
WILLIAM MCGINLEY JAY
GOODWIN PROCTER, LLP

1900 N Street, N.W.
Washington, DC 20036
(202) 346-4190
WJ ay@goodwinlaw.com

ROBERTS. PECK
CENTER FOR CONSTITUTIONAL
LITIGATION, P.C.

455 Massachusetts Ave., NW, Suite 152
Washington, DC 20001
(202) 944-2874
robert. peck@cclfirm.com

~e~&u))
WILMER CUTLER PICKERING
HALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
daniel.kearney@wilmerhale.com

